App. 1
APPENDIX
SIGNATORY MEDIA LAW
AND POLICY SCHOLARS
Rob Frieden
Pioneers Chair and Professor
of Telecommunications and Law
Penn State University
Rmf5@psu.edu
Patrick R. Parsons
Don Davis Professor of Ethics,
and Professor of Communications
Penn State University College of Communications
Pp6@psu.edu
Robert Trager
Professor Emeritus of Journalism
and Mass Communications
University of Colorado at Boulder
Danilo Yanich
Director, M.A. Urban Affairs & Policy Program
University of Delaware
dyanich@udel.edu
University affiliations are listed for identification purposes only.

